         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       EPA Needs to Improve
       Cost Controls for Equipment
       Used during Emergencies
       Report No. 10-P-0047

       December 16, 2009
Report Contributors:	            Andrés Calderón
                                 Randy Holthaus
                                 Les Partridge




Abbreviations

BPA          Blanket Purchase Agreement
ERRS         Emergency and Rapid Response Services
FAR          Federal Acquisition Regulation
MATS         Management Audit Tracking System
OAM          Office of Acquisition Management
OARM         Office of Administration and Resources Management
OSC          On-Scene Coordinator
OSWER        Office of Solid Waste and Emergency Response
RCMS         Removal Cost Management System
START        Superfund Technical Assessment and Response Team
                       U.S. Environmental Protection Agency 	                                            10-P-0047
                                                                                                  December 16, 2009
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review            EPA Needs to Improve Cost Controls for
The Office of Inspector
                                  Equipment Used during Emergencies
General (OIG) sought to
determine whether the U.S.         What We Found
Environmental Protection
Agency (EPA) had the              EPA did not monitor costs paid for equipment used during its responses to
controls and processes in place   Hurricanes Gustav and Ike against average purchase prices. In our sample of 97
during its responses to           equipment items, with usage charges of $4,399, EPA may have paid a total of
Hurricanes Gustav and Ike to      $2,048 more than the average purchase price for 22 items. EPA did not require
timely obtain goods and           the contractor to submit average purchase price information as required in the
services it needed at             contract. While EPA had controls to monitor equipment charges, it did not use the
reasonable prices. We also        tools effectively. EPA could have mitigated the risk of excessive charges for
followed up on actions EPA        equipment rentals by using the Removal Cost Management System for all
committed to take after           emergency response contracts, and tracking equipment rental costs by contract.
Hurricane Katrina.                Improvements are needed so that EPA can better control equipment costs.

Background                        Using lessons learned from Hurricane Katrina, EPA established additional
                                  emergency response contracting mechanisms to meet the Agency’s needs during
In 2006, the OIG issued a         future emergencies. EPA implemented the corrective actions it agreed to take in
report titled Existing            response to recommendations in our 2006 report on Katrina contracting issues.
Contracts Enabled EPA to          However, EPA never established a review board for Hurricanes Gustav and Ike;
Quickly Respond to Hurricane      review boards can help improve future emergency contracting procedures.
Katrina; Future Improvement
Opportunities Exist.              EPA did not notify the OIG as required that several corrective actions were going
Hurricanes Gustav and Ike         to be delayed by more than 6 months. This can impact the completeness and
made landfall in Louisiana and    accuracy of reports to Congress.
Texas in September 2008 and
caused significant damage.         What We Recommend

                                  We recommend that EPA review equipment charges for Hurricanes Gustav and
                                  Ike for usage fees that exceeded average purchase price, negotiate new rates, and
For further information,          amend contract language. We also recommend that EPA develop a system or
contact our Office of             process to identify and prevent overcharges for all emergency response contracts,
Congressional, Public Affairs     and notify the OIG when corrective actions are delayed more than 6 months. EPA
and Management at
(202) 566-2391.
                                  agreed with our recommendations or proposed acceptable alternative corrective
                                  actions that, when implemented, should adequately address the findings.
To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20091216-10-P-0047.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                        December 16, 2009

MEMORANDUM

SUBJECT:	 EPA Needs to Improve Cost Controls for Equipment Used during Emergencies
          Report No. 10-P-0047


FROM:	         Melissa M. Heist
               Assistant Inspector General for Audit

TO:	           Craig E. Hooks
               Assistant Administrator
               Office of Administration and Resources Management

               Mathy Stanislaus         

               Assistant Administrator 

               Office of Solid Waste and Emergency Response 


               Al Armendariz

               Regional Administrator, Region 6 



This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $395,481.

Action Required

In accordance with EPA Manual 2750, the Office of Administration and Resources Management
is required to provide a consolidated written response for the Agency within 90 calendar days.
The response should include a corrective actions plan for agreed upon actions, including
milestone dates. We have no objections to the further release of this report to the public. This
report will be available at http://www.epa.gov/oig.

If you or your staff have any questions, please contact Janet Kasper, Director, Contracts and
Assistance Agreement Audits, at 312-886-3059 or kasper.janet@epa.gov.
EPA Needs to Improve Cost Controls                                                                                          10-P-0047
for Equipment Used during Emergencies




                                  Table of Contents 


Chapters 

   1	   Introduction ...........................................................................................................      1


                Purpose ..........................................................................................................    1         

                Background ....................................................................................................       1         

                Noteworthy Achievements..............................................................................                 2         

                Scope and Methodology.................................................................................                2


   2	   Improvements Needed to Ensure EPA Pays Reasonable Prices 

        for Equipment ........................................................................................................        4


                EPA Did Not Monitor Equipment Usage Costs Against Average 

                  Purchase Prices ........................................................................................            4

                EPA Did Not Require Contractor to Comply With Contract Terms.................                                         5

                EPA Did Not Make Full Use of Available Internal Controls ............................                                 6

                Conclusion......................................................................................................      7         

                Recommendations .........................................................................................             7         

                Agency Comments and OIG Evaluation.........................................................                           7


   3	   EPA Incorporated Lessons Learned after Hurricane Katrina ...........................                                          9


                EPA Awarded Two BPAs and an Additional Logistics Support Contract .......                                             9

                Enhancing Control Board Procedures Would Further Minimize Risk .............                                          9

                Recommendation ...........................................................................................           10         

                Agency Comments and OIG Evaluation.........................................................                          11 


   4	   OIG Not Notified of Delays in Corrective Actions ..............................................                              12     


                EPA Manual Provides Guidance on Notifying OIG.........................................                               12 

                EPA Did Not Notify OIG of Delayed Corrective Actions .................................                               13

                EPA Offices Unsure Who Is Responsible for Updating Tracking System ......                                            13 

                Recommendation ...........................................................................................           14         

                Agency Comments and OIG Evaluation.........................................................                          14 


   Status of Recommendations and Potential Monetary Benefits.................................                                        15     





                                                           - continued -
EPA Needs to Improve Cost Controls                                                                                         10-P-0047
for Equipment Used during Emergencies




Appendices 

   A    Details on Scope and Methodology.....................................................................                       16    


   B    Equipment Spreadsheet .......................................................................................               17    


   C    Corrective Actions Delayed More than 6 Months...............................................                                18    


   D    Agency Response .................................................................................................           19


   E    Distribution ............................................................................................................   22

                                                                                      10-P-0047 





                                 Chapter 1

                                 Introduction
Purpose
          The Office of Inspector General (OIG) reviewed how the U.S. Environmental
          Protection Agency (EPA) responded to Hurricane Katrina and in 2006 issued the
          report Existing Contracts Enabled EPA to Quickly Respond to Hurricane Katrina;
          Future Improvement Opportunities Exist (Report No. 2006-P-00038). In October
          2008, we began a follow-up review of EPA’s actions in response to our 2006
          report. The objectives of our review were to determine whether EPA:

             •	 Paid reasonable prices for equipment when responding to Hurricanes
                Gustav and Ike.
             •	 Established Blanket Purchase Agreements (BPAs) to provide emergency
                response technical support and logistical services and such agreements
                incorporated lessons learned from the Hurricane Katrina response and met
                the Agency’s needs when responding to Hurricanes Gustav and Ike.
             •	 Implemented the corrective actions it agreed to take in response to our
                2006 report on Hurricane Katrina regarding contract management.

Background
          Part of EPA’s mission is to respond to emergencies that threaten our environment
          and human health. In September 2008, two hurricanes struck the Louisiana and
          Texas coasts. Hurricane Gustav made landfall in Louisiana on September 1,
          2008, triggering the largest evacuation in U.S. history; over 3 million people fled
          the oncoming hurricane. Hurricane Ike made landfall in Texas on September 13,
          2008. Ike was the third most destructive hurricane to ever make landfall in the
          United States, with damages estimated in 2008 at $22.4 billion.

          EPA’s role under the national response system is to respond to emergencies with
          respect to the release or threat of release of oil, hazardous substances, pollutants,
          contaminants, or fire or explosion hazard. To accomplish its role, EPA uses
          contracts with specialized contractors, including the following types of contracts:

             •	 Superfund Technical Assessment and Response Team (START).
                Typically, START contractors arrive at the scene of an emergency first.
                START contracts are used to provide technical support to EPA On-Scene
                Coordinators (OSCs) and other federal officials implementing EPA’s
                responsibilities.

             •	 Emergency and Rapid Response Services (ERRS). Next on the scene
                of an emergency typically are ERRS contractors. ERRS contracts are used


                                            1

                                                                                   10-P-0047 



                to provide responsive environmental clean-up services for releases of
                hazardous substances, wastes, contaminants, materials, and petroleum
                products that are harmful to human health and the environment.

         The START and ERRS contracts are (a) cost reimbursement, (b) indefinite-
         delivery indefinite-quantity, (c) fixed-rate, and (d) time-and-materials contracts.
         Time-and-materials contracts include materials at cost, including handling costs,
         fixed hourly labor rates plus general and administrative costs, and profit. If EPA
         needs goods or services from those contractors, EPA orders the goods using
         delivery orders, task orders, and/or technical direction documents. The contractor
         submits an invoice to EPA for reimbursement.

         Indefinite-delivery indefinite-quantity, time-and-materials contracts expose the
         government to risk and should be subject to strict controls to prevent contractors
         from overcharging. The Federal Acquisition Regulation (FAR) states, “A time­
         and-materials contract provides no positive profit incentive to the contractor for
         cost control or labor efficiency. Therefore, appropriate Government surveillance
         of contractor performance is required to give reasonable assurance that efficient
         methods and effective cost controls are being used.”

         A March 4, 2009, presidential memorandum to all federal agencies on contracting
         stated that excessive reliance on cost reimbursable contracts creates a risk that
         taxpayer funds will be spent on contracts that are wasteful, inefficient, subject to
         misuse, or otherwise not well designed. The memorandum calls on federal
         agencies to manage the risk associated with the goods and services being procured
         to ensure that taxpayer funds are not subject to excessive risk.

Noteworthy Achievements
         EPA regional personnel initiated internal meetings after specific emergencies to
         identify and use lessons learned from responding to those emergencies. Regions
         called these "Hotwash" meetings, and the meetings included open discussions
         among managers and staff who directly participated in the emergency responses.
         The purpose was to respond more effectively to future emergencies. These efforts
         indicate EPA’s desire to continuously improve its processes for responding to
         emergencies.

Scope and Methodology
         We conducted this performance audit in accordance with generally accepted
         government auditing standards. Those standards require that we plan and perform
         the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
         for our findings and conclusions based on our audit objectives. We believe that
         the evidence obtained provides a reasonable basis for our findings and
         conclusions based on our audit objectives.



                                          2

                                                                      10-P-0047 



We performed audit field work from October 2008 to October 2009. We
followed up on recommendations made in our 2006 report on Hurricane Katrina
contracting issues. We also conducted Headquarters and regional interviews to
determine how the emergency acquisition process is implemented and what
controls are in place for emergency acquisitions. Regional interviews included
officials in Region 6, which is responsible for both Louisiana and Texas.

We reviewed the ERRS, START, and logistics contracts and the two BPAs
available for emergency acquisitions on Hurricanes Gustav and Ike. We
conducted analyses to determine whether the prices EPA paid were reasonable for
particular items of equipment used during emergency operations. For additional
details on our scope and methodology, see Appendix A.




                                3

                                                                                   10-P-0047 





                               Chapter 2

      Improvements Needed to Ensure EPA Pays 

          Reasonable Prices for Equipment

         EPA did not monitor costs paid for equipment used during its responses to
         Hurricanes Gustav and Ike against average contractor purchase prices. In our
         sample of 97 equipment items, with usage charges totaling $4,399, EPA may have
         paid a total of $2,048 more than the average purchase prices for 22 items. EPA
         did not require the contractor to submit average purchase price information as
         required in the contract. EPA was using time-and-materials contracts and the
         FAR instructs federal agencies to closely monitor this type of contract to provide
         a reasonable assurance of effective cost controls. While EPA had controls to
         monitor equipment charges, it did not make full use of those controls. EPA could
         have mitigated the risk of excessive charges for equipment rentals by using the
         Removal Cost Management System (RCMS) for all emergency response
         contracts, and tracking equipment rental costs by contract. Improvements are
         needed so that EPA can better control equipment costs.

EPA Did Not Monitor Equipment Usage Costs Against Average
Purchase Prices
         In responding to Hurricanes Gustav and Ike, EPA may have paid more in usage
         fees for some equipment than the contractor’s average purchase price. Federal
         contracting regulations define a cost as being reasonable if it does not exceed that
         which would be incurred by a prudent person in the conduct of competitive
         business. EPA paid about $3.5 million to rent equipment to respond to
         Hurricanes Gustav and Ike. In our sample of 97 items with usage charges totaling
         $4,399, EPA may have paid contractors more than the average purchase price for
         22 of those 97 pieces of equipment (23 percent), representing a total overcharge
         of $2,048. See Appendix B for details.

         EPA agreed to limit charges on contractor-owned equipment in its response to our
         2006 report on Katrina contracting issues. EPA stated that the Office of
         Administration and Resources Management (OARM) and its Office of
         Acquisition Management (OAM) would review all current and future contracts to
         ensure that flow-down clauses are included to prevent contractor overcharging.
         The existing contract clause limiting equipment charges in the ERRS contracts
         (Section B.6(4)(a)) states that, “The maximum charge for each contractor-owned
         specific equipment item used on this contract shall not exceed the contractor’s
         average purchase price/average capital value for all pieces of equipment in that
         category in his inventory.” The clause goes on to say that if the average purchase
         price is reached, “[A] usage rate must be negotiated with the Contracting Officer
         before any additional costs are incurred.” That new usage rate is intended to


                                          4

                                                                                                       10-P-0047 



                   reimburse the contractor for operating costs such as maintenance, license, and
                   insurance.

                   Not all the equipment used in the hurricane responses was contractor-owned. For
                   example, contractors rented items such as cameras, printers, and wireless cards.
                   EPA told us that for this equipment the contract clause limiting charges to average
                   purchase prices would not apply. Even if the contract clause limiting charges to
                   average purchase prices would not apply to this equipment, FAR provisions on
                   cost reasonableness would still apply. FAR 31.201-3 states a cost is reasonable if
                   it does not exceed what a prudent person would incur in the conduct of a
                   competitive business.

                   The contractor is entitled to costs in excess of the average purchase price to
                   compensate for maintenance of the equipment and indirect costs, but EPA has not
                   computed what the additional costs would be. The contract allows the contractor
                   to negotiate a maintenance fee once the usage fees exceed the average purchase
                   price. Neither EPA nor the contractor negotiated maintenance fees for the items
                   in our sample. EPA Region 6 staff said usage rates in the contract include general
                   and administrative costs and profit. Region 6 and OAM stated that to obtain the
                   actual purchase price the invoiced cost would have to be reduced by a percentage
                   to reflect cost factors such as general and administrative fees and profit. They
                   explained that those calculations would have to be made to make valid
                   comparisons between total rental costs to average purchase prices. Since
                   Region 6 has not made those calculations, Region 6 personnel stated that they are
                   not sure whether they have paid more than the average purchase price for the
                   equipment in our sample.

EPA Did Not Require Contractor to Comply With Contract Terms
                   The ERRS contractor for Region 6 did not submit average purchase price
                   information until almost 2 years after the contract was signed. According to the
                   contract, the contractor shall supply the contractor’s average purchase
                   price/average capital value for all pieces of equipment that have fixed rates to the
                   contracting officer. The ERRS contracts were signed in May 2007 but the
                   contractor did not submit the average purchase price information until April 2009.

                   Region 6’s Procurement Chief and her contracting staff acknowledged they had
                   not obtained the data and it had been an oversight on the Region’s part. While the
                   contract required the contractor to supply information on average purchase price,
                   it did not include a timeframe for providing, or penalties for not providing, the
                   information. Without average purchase price information, EPA could not enter
                   the information into RCMS for the ERRS contracts.1 As a result, EPA could not
                   determine whether the limit for rental charges on any particular piece of
                   equipment was being approached or exceeded.

1
    A separate EPA contractor in Edison, New Jersey, enters average purchase price information into RCMS.


                                                         5

                                                                                     10-P-0047 





EPA Did Not Make Full Use of Available Internal Controls
          EPA needs to strengthen its internal controls over equipment charges during
          emergencies. Internal controls are tools that program and financial managers use
          to safeguard the integrity of Agency programs. While EPA has controls that it
          could use to monitor equipment charges, it has not always used the tools
          effectively. Region 6 personnel told us that they believe the risk of being
          overcharged is low and that EPA can collect overcharges before contract close­
          out. Although EPA might be able to recover overcharges if it performs checks on
          invoices after the fact, relying on this method constitutes an ineffective and labor-
          intensive method.

          EPA uses the RCMS for some but not all emergency response contracts. RCMS
          enables EPA to track equipment costs against average purchase prices for
          individual pieces of equipment. EPA requires ERRS contractors to input daily
          actual cost data to RCMS during emergency responses. However, EPA does not
          require START contractors and Region 6’s logistics contractor to use RCMS in
          that way or to provide average purchase price information. However, an OSC
          may elect to use RCMS for a START contract if the OSC believes it would be a
          cost-effective method of tracking equipment costs.

          RCMS is currently set up to track costs by task order, not by contract. As a result,
          contractors have the ability to spread equipment rental costs out over different
          task orders, and EPA will not be able to identify instances where the combined
          cost exceeded the average purchase price. For example, the pressure washer EPA
          rented appeared in two different task orders (042-003 and 045-003). If equipment
          rental charges are only tracked by task order, each time there is a new task order
          the equipment rental charge accruals start over. Region 6 officials told us that
          they are working with EPA’s RCMS expert to fix this problem.

          EPA reviewed affected contracts before April 7, 2007, but did not ensure that
          future procurement vehicles (such as Region 6’s logistics contract) contained the
          flow-down clause. The clause stipulates that maximum charges for contractor-
          owned equipment “[Apply] to team subcontractors and tier subcontractors.” Not
          having flow-down clauses puts EPA at risk of being overcharged for equipment
          EPA contractors rent from subcontractors, and the clause gives EPA the legal
          grounds to recover overcharges. When we asked Region 6’s Procurement Section
          Chief in December 2008 about the flow-down clause, the Chief acknowledged
          that it was not in the logistics contract awarded in July 2008 and should have
          been. EPA modified the contract to include the flow-down clause effective
          May 8, 2009. EPA also modified one of the BPAs to include the flow-down
          clause effective July 14, 2009.




                                            6

                                                                                  10-P-0047 





Conclusion
         Federal agencies should manage the risk associated with the goods and services
         being procured to ensure that taxpayer funds are not subject to excessive risk.
         Region 6’s START, ERRS, and logistics contracts are all cost reimbursable
         contracts. There are internal controls available to EPA to reduce the risk of such
         contracts – for example, the ability of the RCMS system to identify when contract
         charges exceed average purchase prices. However, EPA did not fully use these
         internal controls. As a result, EPA may have paid more to rent equipment than
         was reasonable and may continue to do so.

Recommendations
         We recommend that the Regional Administrator for Region 6:

         2-1 	   Review all equipment charges for responding to Hurricanes Gustav and
                 Ike and identify any items where the usage fees exceeded the average
                 purchase price. For these equipment items, the contracting officer should
                 negotiate maintenance rates for the equipment and then require the
                 contractor to repay any charges in excess of negotiated rates.

         2-2 	   Amend the ERRS contract to require the contractor to provide average
                 purchase price information within a specific timeframe.

         We recommend that the Assistant Administrator for Solid Waste and Emergency
         Response:

         2-3 	   Develop a system or process to identify and prevent overcharges for
                 contractor-owned equipment for START and emergency logistics
                 contracts. If RCMS is not used, provide policies and procedures for how
                 to track equipment costs.

         2-4 	   Modify RCMS so that it tracks equipment charges by contract rather than
                 just task order.

Agency Comments and OIG Evaluation

         EPA concurred with Recommendations 2-1, 2-2, and 2-3. While it did not agree
         with Recommendation 2-4, EPA proposed an alternative corrective action. This
         corrective action would not modify RCMS, but would provide project officers and
         contracting officers with the ability to query the system.

         Regarding our audit finding related to overcharged equipment items, EPA
         requested that the OIG examine new data related to the pressure washer and
         generator. EPA explained that during our audit it initially provided inaccurate


                                          7

                                                                          10-P-0047 



data to us because the contractor “inadvertently reported” incorrect average
purchase prices for those two items. We reviewed additional cost documentation
that EPA provided and revised our report based on the new data. As a result, we
are no longer including the pressure washer and generator in our list of items that
had costs exceeding average purchase prices.

In its response to Recommendation 2-1, EPA did not provide details on how it
would address the finding. While EPA stated that it has started taking corrective
actions, it also did not provide a completion date. When responding to the final
report, EPA needs to provide details on how it would address the finding and
provide a completion date.

For Recommendation 2-2, in its response EPA stated that it had already
implemented the suggested corrective action. EPA has required both ERRS
contractors to provide average purchase price information in RCMS within
60 working days after the initial award and on each anniversary date of the
contract. Region 6 provided copies of the contract modifications that were
approved for both of the ERRS contracts after our draft report was issued. We
believe EPA’s actions adequately address our recommendation.

For Recommendation 2-3, EPA agreed that either a system or process needs to be
developed to prevent overcharging of rented equipment. EPA stated that to
develop such a process will require coordination with all regional stakeholders.
EPA plans to complete this corrective action by December 2010. EPA stated that
until then, the regions will continue to perform invoice reviews to ensure the
government is not overcharged for equipment. This corrective action will
adequately address our recommendation. Upon completion of the action, the OIG
requests EPA provide documentation of the new process.

EPA did not agree with Recommendation 2-4. However, it proposed to train
project officers and contracting officers on how to query RCMS by July 2010.
These queries will enable project officers and contracting officers to capture
individual equipment costs so that they can be tracked by contract, not just by task
order. We believe EPA’s actions adequately address our recommendation.

The full text of the Agency response is in Appendix D.




                                 8

                                                                                10-P-0047 





                              Chapter 3

           EPA Incorporated Lessons Learned 

                 after Hurricane Katrina

         Using lessons learned from Hurricane Katrina, EPA established additional
         emergency response contracting mechanisms to meet Agency needs during future
         emergencies. EPA developed and awarded two national BPAs and a logistics
         support contract that met Region 6’s needs during Hurricanes Gustav and Ike.
         EPA procedures require that OAM establish a review board to assess internal
         controls and the execution of contracts and purchase card actions for significant
         emergency responses, and discussions on convening a board began 5 months after
         the hurricanes made landfall. However, OAM never established a review board
         for Hurricanes Gustav and Ike. EPA can enhance its emergency contracting
         procedures to clarify when OAM is to establish the review board.

EPA Awarded Two BPAs and an Additional Logistics Support Contract

         Following lessons learned from Hurricane Katrina, EPA developed two BPAs and
         a logistics contract for Region 6 that met EPA needs during emergency responses.
         One BPA required the vendor to provide housing/lodging services to support
         EPA’s OSCs and other federal officials implementing EPA’s responsibilities in all
         EPA regions. The other BPA required the vendor to provide an Incident
         Command Post and associated services to support Agency emergency actions.
         The logistics contract included providing and coordinating logistical support
         services that address Region 6’s immediate and high priority needs for lodging
         and support services.

         The BPAs addressed the OIG recommendation in our 2006 audit report that EPA
         establish advance agreements with vendors that are flexible and detailed for the
         items EPA used substantially during its Katrina response, such as housing and
         food services. The BPAs also specifically addressed prior OIG concerns
         regarding such issues as whether all office space needed to be under one roof and
         the definition of private bedroom areas. Personnel from the three EPA regions we
         spoke with believed they had more control and alternatives now to procure goods
         and services during emergency actions; they believe that there are mechanisms
         now in place to handle any kind of situation.

Enhancing Control Board Procedures Would Further Minimize Risk
         EPA did not establish a control board to review contracts and purchase card
         actions for Hurricanes Gustav and Ike. According to Section 1.5.4.1 of OAM’s
         Emergency Contracting Procedures, a contract control review board comprised of



                                         9

                                                                                 10-P-0047 



        management level officials from OAM, the Office of General Counsel, and the
        Office of the Chief Financial Officer will assess the effectiveness of internal
        controls and execution of contracts and purchase card actions. Representatives
        from these three offices will ensure that emergency funds are used in support of
        the Agency’s mission and are protected from fraud, waste, and abuse.

        The Office of Federal Procurement Policy’s Emergency Acquisitions guide, dated
        May 2007, states:

                Agencies should consider the creation of a mitigation board to
                control the increased risks during an emergency. Such boards
                allow for increased communication, clear policy direction, and
                effective resource utilization.

        EPA’s response action for Hurricanes Gustav and Ike started in August 2008.
        Five months after the two hurricanes made landfall, EPA attempted to convene a
        review board but never did. According to the OAM Acting Director, Gustav and
        Ike were nowhere near the “magnitude” of Katrina and initially they were not
        even sure they would need to establish a contracts control board. OAM said that
        within 2 weeks of Gustav and Ike making landfall OAM was tracking purchases
        to stay on top of issues and was totally aware of what was happening.

        While EPA may have been tracking purchases, current Agency procedures require
        that a control review board be established. EPA established a control review
        board for Hurricane Katrina in 2005 while the response action was on-going, and
        it enabled EPA to reduce the risk of overcharging and manage problems as they
        occurred.

        EPA needs to clarify the emergency contracting procedures to specify for what
        type of emergencies the control board is to be established, how soon after the
        emergency it is to be established, and how long the board is to remain active.
        Updating the procedures will ensure that contract funds will continue to be
        safeguarded during future emergencies.

Recommendation
        We recommend that the Assistant Administrator for Administration and
        Resources Management:

        3-1 	   Expand the Emergency Contracting Procedures to describe when EPA
                should convene a control review board, what offices should participate in
                board meetings, and how long the board should remain active.




                                        10

                                                                                10-P-0047 



Agency Comments and OIG Evaluation

         EPA concurred with Recommendation 3-1 and agreed to modify its emergency
         contracting procedures related to convening a contract control review board. EPA
         stated it will complete the revision by October 2010. This corrective action will
         adequately address our recommendation. Upon completion of the action, the OIG
         requests EPA to provide the OIG with documentation of the new process.




                                         11

                                                                                      10-P-0047 





                                 Chapter 4

   OIG Not Notified of Delays in Corrective Actions

         EPA did not notify the OIG when corrective actions were delayed more than
         6 months after agreed to milestone dates. EPA implemented the corrective
         actions it agreed to take in response to our 2006 report on Katrina contracting
         issues, but there is one effort that EPA still needs to complete. EPA Manual 2750
         requires the Agency to notify the OIG when EPA anticipates delays of more than
         6 months in implementing corrective actions. OARM acknowledged that it forgot
         to notify the OIG. When EPA does not properly notify the OIG of delays in
         corrective actions, EPA hinders communication with the OIG on the effectiveness
         of Agency programs and may impact the completeness and accuracy of reports to
         Congress.

EPA Manual Provides Guidance on Notifying OIG
         Action officials (usually Assistant and Regional Administrators) and audit
         follow-up coordinators have specific audit management responsibilities, as shown
         in Table 4-1. According to EPA Manual 2750, one of the responsibilities of
         action officials is to notify the OIG when planned milestones for corrective
         actions are going to be delayed more than 6 months.

          Table 4-1: Audit Management Responsibilities
                   Title                                      Duties
                                     • Ensures that corrective actions are documented,
              Action Officials         tracked, and implemented
                                     • Certifies that corrective actions are complete (or
                                       designates a certifying official to do so)

                                     • Provides guidance and ensures that responses to OIG
                                       reports are complete and timely
                                     • Maintains official files containing the record of
                                       management decisions and certifications of completed
             Audit Follow-up
                                       corrective actions
              Coordinators
                                     • Provides status reports to the Agency Audit Follow-up
                                       Coordinator on corrective actions and audit resolution,
                                       and tracks reasons for delay
                                     • Prepares reports to Congress
         Source: EPA Manual 2750.




                                         12

                                                                                                       10-P-0047 



EPA Did Not Notify OIG of Delayed Corrective Actions
                 EPA was more than 6 months late implementing the corrective actions for eight
                 recommendations and did not notify the OIG of the delays.2 For example, the
                 Emergency Contracting Procedures document (in response to Recommendation
                 2-1) was produced 11 months after the agreed-upon milestone date. The Incident
                 Management Handbook document (in response to Recommendation 4-1, Bullet 1)
                 was produced 9 months after the agreed-upon milestone date. See Appendix C
                 for a list of all the actions that were delayed.

                 During our audit, the Office of Solid Waste and Emergency Response (OSWER)
                 finalized guidance related to the Response Support Corps into an EPA Order to
                 address Recommendation 4-1, Bullet 2. The Order was effective August 4, 2009.
                 EPA still needs to finish implementing one corrective action. In its response to
                 our 2006 report on Katrina contracting issues, EPA pledged to deploy a national
                 inventory tracking system by December 31, 2006. EPA personnel have told us
                 that the roll-out is progressing and that the system should be fully deployed by the
                 end of December 2009. OSWER is already tracking this corrective action as a
                 result of an OIG report on emergency response equipment.3

EPA Offices Unsure Who Is Responsible for Updating Tracking
System
                 EPA did not notify the OIG of delayed corrective actions regarding our 2006
                 report on Katrina contracting issues because there was confusion between
                 OSWER and OARM as to who was ultimately responsible for updating EPA’s
                 Management Audit Tracking System (MATS). OARM was listed as the action
                 official in MATS. The OAM Director signed a memorandum certifying that all
                 corrective actions in response to the OIG’s 2006 report on Katrina contracting
                 issues were completed by June 30, 2008. However, some of the actions where
                 OSWER was taking the lead had not been completed. When we asked the audit
                 follow-up coordinators about the dates in MATS, the audit follow-up coordinator
                 for OSWER agreed to take the steps necessary to accurately update MATS. Not
                 properly tracking corrective actions in MATS may adversely affect the
                 completeness and accuracy of audit follow-up information and reports to
                 Congress.




2
  Recommendation 4-1 had five parts (bullets). We are counting each of those five parts as a separate, individual

recommendation requiring one corrective action each. 

3
  EPA Plans for Managing Counter Terrorism/Emergency Response Equipment and Protecting Critical Assets Not 

Fully Implemented, Report No. 09-P-0087, dated January 27, 2009.




                                                       13

                                                                                10-P-0047 



Recommendation
         We recommend that the Assistant Administrator for Administration and
         Resources Management and the Assistant Administrator for Solid Waste and
         Emergency Response:

         4-1 	   Notify the OIG when planned milestones for corrective actions are going
                 to be delayed more than 6 months.

Agency Comments and OIG Evaluation

         EPA concurred with Recommendation 4-1. EPA stated that it would comply with
         the requirements of MATS and EPA Manual 2750 for notifying the OIG of
         delayed corrective actions. OSWER also stated that it would check the status of
         milestones on a quarterly basis. We agree with EPA’s proposed corrective
         actions.




                                         14

                                                                                                                                       10-P-0047



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed To
    No.      No.                         Subject                        Status1        Action Official             Date      Amount      Amount

    2-1       7     Review all equipment charges for responding to          O     Regional Administrator for
                    Hurricanes Gustav and Ike and identify any items                     Region 6
                    where the usage fees exceeded the average
                    purchase price. For these equipment items, the
                    contracting officer should negotiate maintenance
                    rates for the equipment and then require the
                    contractor to repay any charges in excess of
                    negotiated rates.

    2-2       7     Amend the ERRS contract to require the contractor       C     Regional Administrator for     10/20/09
                    to provide average purchase price information                        Region 6
                    within a specific timeframe.

    2-3       7     Develop a system or process to identify and             O     Assistant Administrator for    12/31/10
                    prevent overcharges for contractor-owned                           Solid Waste and
                    equipment for START and emergency logistics                    Emergency Response
                    contracts. If RCMS is not used, provide policies
                    and procedures for how to track equipment costs.

    2-4       7     Modify RCMS so that it tracks equipment charges         O     Assistant Administrator for    07/31/10
                    by contract rather than just task order.                           Solid Waste and
                                                                                   Emergency Response

    3-1       10    Expand the Emergency Contracting Procedures to          O     Assistant Administrator for    10/31/10
                    describe when EPA should convene a control                       Administration and
                    review board, what offices should participate in               Resources Management
                    board meetings, and how long the board should
                    remain active.

    4-1      14     Notify the OIG when planned milestones for              O     Assistant Administrator for    12/31/10
                    corrective actions are going to be delayed more                  Administration and
                    than 6 months.                                                 Resources Management
                                                                                             and
                                                                                  Assistant Administrator for
                                                                                       Solid Waste and
                                                                                    Emergency Response




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                15

                                                                                     10-P-0047 



                                                                                 Appendix A

                 Details on Scope and Methodology
We analyzed the laws, regulations, and guidance pertaining to emergency response contracts.
We reviewed internal controls related to planning, organizing, directing, and controlling
acquisitions operations. We also reviewed controls for measuring, reporting, and monitoring
emergency acquisitions. We gained an understanding of internal controls by performing the
steps outlined below.

   •	 We interviewed OAM and OSWER managers and staff members in EPA Headquarters in
      Washington, DC. We also interviewed EPA acquisitions personnel in Regions 6, 7, and
      9; an OSWER Environmental Response Team RCMS equipment specialist in Cincinnati,
      Ohio; and an OARM program analyst in Research Triangle Park, North Carolina.

   •	 We examined the Region 6 START and ERRS contracts and a logistics contract available
      for emergency acquisitions during EPA’s responses to Hurricanes Gustav and Ike. We
      examined the two national BPAs that EPA awarded after Hurricane Katrina.

   •	 We judgmentally selected 25 equipment categories of non-expendable personal property
      that EPA rented during Gustav and Ike to determine whether the rental costs exceeded the
      average purchase price of those items. The audit team selected equipment items to
      review based on rental rates that seemed high and could likely be above purchase prices.
      The 25 categories of items in our sample of equipment represented 97 individual pieces
      of equipment rented under the START, ERRS, and Region 6 logistics contracts between
      September and December 2008. The sample represented about 10 percent of the
      equipment rented to respond to the Hurricanes. Our review focused on the costs for
      equipment only and not other emergency response cost categories. Because we used a
      non-statistical sample, the results of our review cannot be projected.

   •	 We reviewed relevant criteria documents, such as FAR Parts 16, 18, and 31; the Office of
      Federal Procurement Policy’s guidance on emergency acquisitions; and a presidential
      memorandum calling for less reliance on cost-reimbursable contracts.

   •	 We reviewed numerous documents related to EPA’s response to our 2006 report on
      Katrina contracting issues to gain an understanding of EPA progress in completing the
      related corrective action plan. We reviewed the MATS entry for that audit to determine
      whether EPA had used the system to appropriately track and finalize proposed audit
      response actions.

   •	 Besides the 2006 OIG Report No. 2006-P-00038, there was one other OIG report on
      contracting during emergencies. That was Report No. 2007-P-00015, New Housing
      Contract for Hurricane Katrina Command Post Reduced Costs but Limited Competition,
      issued March 29, 2007. The report did not contain any recommendations.




                                              16

                                                                                                         10-P-0047


                                                                                                    Appendix B

                                  Equipment Spreadsheet
                                                        Average      Total
                                        Contract        Purchase     Rental        Cost          Price
                                                               4
                  Item Name              Type            Price        Cost        Overrun        Range
         Camera (RFW21158)              START           $323.23      $361.53      $38.30        $237.90-497
         Camera (RFW23609)              START           $323.23      $355.77      $32.54        $237.90-497
         Camera (WSH00028)              START           $109.50      $253.93      $144.43           $66-153
         Camera (WSH00025)              START           $109.50      $159.18      $49.68            $66-153
         Camera (WSH00026)              START           $109.50      $159.18      $49.68            $66-153
         Camera (WSH00027)              START           $109.50      $159.18      $49.68            $66-153
         Camera (WSH00029)              START           $109.50      $159.18      $49.68            $66-153
         Camera (WSH00030)              START           $109.50      $159.18      $49.68            $66-153
         Camera (WSH00031)              START           $109.50      $159.18      $49.68            $66-153
         Printer (WSH00048)             START           $347.00      $396.00      $49.00           $200-494
         Printer (WSH00049)             START           $347.00      $396.00      $49.00           $200-494
         Wireless Card
         (WSH00075)                     START            $22.24      $230.10      $207.86      $19.99-24.75
         Wireless Card
         (WSH00077)                     START            $22.24      $230.10      $207.86      $19.99-24.75
         Wireless Card
         (WSH00078)                     START            $22.24      $230.10      $207.86      $19.99-24.75
         Wireless Card
         (WSH00074)                     START            $22.24      $214.50      $192.26      $19.99-24.75
         Wireless Card
         (WSH00144)                     START            $22.24      $214.50      $192.26      $19.99-24.75
         Wireless Card
         (WSH00076)                     START            $22.24      $171.60      $149.36      $19.99-24.75
         Wireless Card
         (WSH00222)                     START            $22.24      $78.00       $55.76       $19.99-24.75
         Wireless Card
         (WSH00223)                     START            $22.24      $78.00       $55.76       $19.99-24.75
         Wireless Card
         (WSH00224)                     START            $22.24      $78.00       $55.76       $19.99-24.75
         Wireless Card
         (WSH00225)                     START            $22.24      $78.00       $55.76       $19.99-24.75
         Wireless Card
         (WSH00226)                     START            $22.24      $78.00       $55.76       $19.99-24.75
         Totals                                          $2,351.60    $4,399.21   $2,047.61
         Source: OIG analysis of EPA and market data.




4
 The contractors did not provide the average purchase prices for the START equipment items; as a result, we
contacted vendors directly and did research via the Internet to obtain the purchase price data. The average purchase
prices for START items are what it would have cost to purchase the item and do not include overhead and
maintenance costs the contractor may incur. The average purchase prices for the wireless cards did not include
airtime, which was included in the contractor’s fixed rate.


                                                             17

                                                                                                           10-P-0047


                                                                                                      Appendix C

         Corrective Actions Delayed More than 6 Months
                     (from OIG Report No. 2006-P-00038)

                                                             Agreed-Upon         Completion             Actual
                                                              Milestone            Date in            Completion
    Recommendation #              Recommendation                Dates5             MATS                  Date
Recommendation 2-1               Develop a                    Document           December 6,         November 7,
                                 strategy/plan to            completed by           2007                2007
                                 deploy sufficient          December 2006
                                 personnel to an
                                 emergency response
                                 area
Recommendation 2-3               Continue exploring             BPAs            September 30,       September 26,
                                 advance agreements         developed by            2006              2007 and
                                 for support services       September 30,                          January 30, 2008
                                                                2006
Recommendation 3-1               Establish a policy           Handbook          December 31,          Handbook
                                 and procedures for          completed by          2007               completed
                                 adequate invoice            December 31,                          September 2007;
                                 review                         2006                                   Job Aid
                                                                                                      completed
                                                                                                    January 2009
Recommendation 3-2               Make sure                 Insert flow-down      April 7, 2007        May 8, 2009
                                 subcontractor                clauses by
                                 limitation clauses are     December 31,
                                 in contracts                    2006
Recommendation 4-1,              Centralize or reduce         Handbook          December 31,       September 2007
Bullet 1                         the number of               completed by          2006
                                 locations for               December 31,
                                 equipment receipt              2006
Recommendation 4-1,              Provide a sufficient         Guidance          December 31,        August 4, 2009
Bullet 2                         number of property          document by           2006
                                 specialists to the          December 31,
                                 emergency area                 2006
Recommendation 4-1,              Develop a purchase         Implemented in         June 30,        Deployed in June
Bullet 4                         log system                Fiscal Year 2007          2008               2008
Recommendation 4-1,              Establish a national        Deployed by        December 31,           Proposed
Bullet 5                         custodial area in           December 31,          2006             implementation
                                 Fixed Asset System             2006                                date December
                                                                                                         2009
Source: OIG analysis of EPA data.




5
    Milestone dates are the dates EPA inserted into its response to OIG’s 2006 report on Katrina contracting issues.


                                                          18
                                                                                        10-P-0047 



                                                                                    Appendix D

                                Agency Response

                                         November 5, 2009

MEMORANDUM

SUBJECT:       Response to Draft Audit Report: EPA Needs to Improve Cost Controls for
               Equipment Used during Emergencies

FROM:          Craig E. Hooks
               Assistant Administrator

TO:            Janet Kasper
               Director of Contracts and Assistance Agreement Audits

       Thank you for the opportunity to comment on the draft report entitled, “EPA Needs to
Improve Cost Controls for Equipment Used during Emergencies.” We are in general agreement
with the findings and recommendations. However, we offer the following specific and detailed
comments below.

General Comments on Report/Findings:

Report Title - The original report entitled, “EPA Is Better Prepared to Respond to Emergencies,
Yet Areas for Improvement Exist,” does not have the negative impact the new title “EPA Needs
to Improve Cost Controls for Equipment Used during Emergencies,” infers. We recommend
using the original title.

Chapter 2, Page 4 - Improvements Needed to Ensure EPA Pays Reasonable Prices for Equipment
- Paragraph 2 states, “In our sample of 97 items, with usages charges totaling $15,399, EPA may
have paid $4,532 more than the average purchase price of the equipment.” The language is
misleading. We suggest changing the language to read, “In our sample of 97 items with usages
charges totaling $15,399, EPA may have paid contractors more than the average purchase price
for 24 of those 97 individual pieces of equipment (25 percent), representing a total overcharge of
$4,532.”

Comments on Recommendations:

Recommendation 2-1: Review all equipment charges for responding to Hurricanes Gustav
and Ike and identify any items where the usage fees exceeded the average purchase price.
For these equipment items, the contracting officer should negotiate maintenance rates for
the equipment and then require the contractor to repay any charges in excess of negotiated
rates.



                                                19

                                                                                        10-P-0047 



Region 6 Response: We concur with the findings and have started taking corrective actions. All
equipment charges for Emergency Rapid Response Services (ERRS) contracts have been
reviewed and are being discussed with the contractors. Based on our review of recent data
provided by the contractor, the pressure washer and generator identified in Appendix B of the
report did not exceed the purchase price as stated in the report. The contractor inadvertently
reported an incorrect purchase price of $5,885.38 for the pressure washer and $2,630.83 for the
generator. The correct price for the pressure washer is $8,276.46 and $3,601.98 for the generator.
We recommend that the OIG upon verification of the data reflect these changes in the final
report.

Recommendation 2-2: Amend the ERRS contract to require the contractor to provide
average purchase price information within a specific timeframe.

Region 6 Response: We concur with the finding and have implemented the suggested
corrective action to require both ERRS contractors to provide average purchase price information
in the Removal Cost Management System (RCMS) within sixty (60) working days after the
initial award and on each anniversary date of the contract.

Recommendation 2-3: Develop a system or process to identify and prevent overcharges
for contractor owned equipment for START and emergency logistics contracts. If RCMS
is not used, provide policies and procedures for how to track equipment costs.

OSWER Response: Although we concur with the findings, the current Superfund Technical
Assessment and Response Team (START) and National Logistics contracts do not contain
contractor owned equipment. The contractors either rent or lease equipment from commercial
vendors to support emergency efforts. We agree that either a system needs to be developed, a
process indentified or RCMS utilized to prevent overcharging of rented equipment. Determining
which system or process will be utilized will require coordination with all regional stakeholders
and will be a focus for Headquarters and START contracts in FY10. We anticipate this effort
being completed by December 2010. In the interim, the regions will continue to perform invoice
reviews to ensure the Government is not overcharged for equipment.

Recommendation 2-4: Modify RCMS so that it tracks equipment charges by contract
rather than just task order.

OSWER Response: The RCMS system has a data mining feature that enables users to query
the system and capture individual equipment cost. While we do not concur with this finding, we
will provide training on how to query the system at the On-Scene Coordinator Readiness
Conference in February 2010 and the Superfund Project Officer/Contracting Officer Conference
in July 2010.

Recommendation 3-1: Expand the Emergency Contracting Procedures to describe when
EPA should convene a Control Review Board, what offices should participate in board
meetings, and how long the board should remain active.




                                               20

                                                                                        10-P-0047 



OAM Response: We concur with the finding and will modify the Acquisition Handbook,
Chapter 18, “Emergency Contracting Procedures”, to address the requirements to convene a
Control Review Board; who will participate; and how long the board will remain active. Draft
procedures will be completed for internal review by November 2009 and the final revision will
be completed by October 2010.

Recommendation 3-1 [sic]: Notify the OIG when planned milestones for corrective actions
are going to be delayed more than 6 months.

OAM Response: We concur with the finding and will update and utilize the audit tracking
system that is currently in place to ensure compliance with the Agency’s Management Audit
Tracking System (MATS) and EPA Manual 2750 which requires the Agency to notify the OIG
of anticipated delays of more than 6 months in implementing corrective actions.

OSWER Response: We concur with the finding and will continue working with respective
Audit Coordinators to ensure compliance with MATS and EPA Manual 2750 requirements for
changing corrective action plans. We will also check the status of milestones on a quarterly basis
and have the Audit Coordinators notify the OIG of any changes that are going to be delayed
more than 6 months.

       We look forward to receiving the final report. Should you have any questions or
comments, please contact John Gherardini, Acting Director, Office of Acquisition Management,
at 564-4310.




                                                21

                                                                                   10-P-0047


                                                                               Appendix E

                                    Distribution

Office of the Administrator
Assistant Administrator, Office of Administration and Resources Management
Assistant Administrator, Office of Solid Waste and Emergency Response
Chief Financial Officer
Regional Administrator, Region 6
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Director, Office of Acquisition Management, Office of Administration and Resources
       Management
Director, Office of Budget, Office of the Chief Financial Officer
Director, Office of Regional Operations
Audit Follow-up Coordinator, Office of Administration and Resources Management
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Region 6
Acting Inspector General




                                             22

